                                           Office of Inspector General
                                          Corporation for National and
                                                   Community Service




                       OFFICE OF INSPECTOR GENERAL
                       AGREED-UPON PROCEDURES FOR
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                            GRANTS AWARDED TO
                   MONTANA OFFICE OF COMMUNITY SERVICE

                                   OIG REPORT 08-15




                                    Prepared by:

                             Cotton & Company LLP
                                 635 Slaters Lane
                                     4th Floor
                              Alexandria, VA 22314



This report was issued to Corporation management on March 14, 2008. Under the laws and regulations
governing audit follow-up, the Corporation is to make final management decisions on the report’s
findings and recommendations no later than September 10, 2008 and complete its corrective actions by
March 14, 2009. Consequently, the reported findings do not necessarily represent the final resolution of
the issues presented.
                                  OFFICE OF INSPECTOR GENERAL
                                  AGREED-UPON PROCEDURES FOR
                         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                       GRANTS AWARDED TO
                              MONTANA OFFICE OF COMMUNITY SERVICE


                                                         CONTENTS


Section                                                                                                                  Page


Executive Summary............................................................................................................ 1

Independent Accountants’ Report on Applying Agreed-Upon Procedures........................                                   4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ..............................                              7

Schedule A: State Administrative Award No. 04CAHMT001 ......................................... 8

Schedule B: State Administrative Award No. 07CAHMT001.......................................... 11

Schedule C: PDAT Award No. 05PTHMT001 ................................................................. 12

Schedule D: Montana Conservation Corps ....................................................................... 13

Schedule E: Literacy Support Corps.................................................................................. 14

Schedule F: University of Montana Campus Corps…………………………................... 22

Exhibit B: Compliance Results.......................................................................................... 26

Appendices

A: Montana Office of Community Service’s Response to Agreed-Upon Procedures Report
B: Corporation’s Response to Agreed-Upon Procedures Report
                                      EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures to assist
the OIG in grant cost and compliance testing of Corporation-funded Federal assistance provided to
the Montana Office of Community Service (OCS).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of $57,798,
education awards of $189,809, and student loan accrued interest awards of $8,947. A questioned
cost is an alleged violation of provision of law, regulation, contract, grant, cooperative agreement, or
other agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation. Detailed results of our agreed-
upon procedures are presented in Exhibit A and the supporting schedules.

Participants who successfully complete terms of service under AmeriCorps grants are eligible for
education awards and in some cases accrued interest awards from the Corporation’s National Service
Trust. These award amounts are not funded by Corporation grants and thus are not included in
claimed costs. However, as part of our agreed-upon procedures, and using the same criteria as
claimed costs, we determined the effect of our findings on eligibility for education-awards and
student loan accrued interest awards.

We summarized grant compliance results in Exhibit B. Following is a summary of those testing
results.

1.     OCS and its subgrantees claimed unallowable and unsupported costs.

2.     OCS did not ensure that its subgrantees completed required member criminal background
       checks before members served with children.

3.     All subgrantees tested had weaknesses in member timekeeping procedures.

4.     Subgrantees did not always complete member enrollment and exit forms and enter them into
       the Web-Based Reporting System (WBRS) in accordance with AmeriCorps requirements.

5.     Some member contracts were not signed before applicants started service, were missing, or
       did not include all required elements.

6.     Subgrantees did not always document member attendance at orientation training.

7.     Subgrantees did not always conduct member evaluations that met AmeriCorps requirements
       or document all evaluations.

8.     Subgrantee financial management systems did not adequately account for and report grant
       costs in accordance with Federal requirements.

                                                 1
9.     OCS and its subgrantees did not ensure the allowability of claimed match costs.

10.    OCS did not ensure that subgrantees complied with AmeriCorps requirements for
       documenting compelling personal circumstances and living allowance payments.

11.    OCS did not document all procedures performed during site visits and did not have
       procedures to obtain subgrantee audit management letters or perform necessary
       reconciliations.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures (AUP)
Program for Corporation Awards to Grantees (including Subgrantees), dated February 2007. Our
procedures covered testing of the following grants:

Program                     Grant No.      Award Period          AUP Period       Total Award
AmeriCorps-Competitive    03ACHMT001      09/03/03-12/31/06   08/01/05-12/31/06    $1,890,319
AmeriCorps-Competitive    06ACHMT001      08/01/06-07/31/09   08/01/06-03/31/07     2,065,102
AmeriCorps-Formula        03AFHMT001      09/11/03-09/10/06   09/01/05-09/10/06       439,894
AmeriCorps-Formula        06AFHMT001      08/15/06-08/14/09   08/15/06-03/31/07       434,962
Administrative            04CAHMT001      01/01/04-12/31/06   07/01/05-12/31/06       398,020
Administrative            07CAHMT001      01/01/07-12/31/09   01/01/07-06/30/07       129,239
Disability                04CDHMT001      01/01/04-12/31/06   07/01/05-12/31/06       153,209
Disability                07CDHMT001      01/01/07-12/31/09   01/01/07-06/30/07         74,000
PDAT                      05PTHMT001      01/01/05-12/31/07   07/01/05-06/30/07       322,500

The OIG’s agreed-upon procedures program included:

             Obtaining an understanding of the Commission and its subgrantee monitoring
              process.

             Reconciling claimed grant costs and match costs of the Commission and a sample
              of subgrantees to their accounting systems.

             Testing subgrantee member files to verify that the records support the eligibility
              to serve and allowability of living allowances and education awards.

             Testing compliance of the Commission and a sample of subgrantees on selected
              AmeriCorps Provisions, and award terms and conditions.

             Testing claimed grant costs and match costs of the Commission and a sample of
              subgrantees to ensure:

              i.     AmeriCorps grants, Administrative grants, Program Development and
                     Training (PDAT) grants, and Disability Placement grants were properly
                     recorded;


                                               2
              ii.     Costs were properly matched; and

              iii.    Costs were allowable and supported in accordance with applicable Office
                      of Management and Budget (OMB) circulars, grant provisions, award
                      terms and conditions.


We conducted our fieldwork at OCS and three of its six subgrantee sites, Montana Conservation
Corps (MCC), Literacy Support Corps (Literacy Support), and University of Montana Campus
Corps (Campus Corps) from August through October 2007.


BACKGROUND

The Corporation supports national and community service programs that provide full- and part-time
opportunities for Americans to engage in service and provides educational opportunities to
participants. The AmeriCorps program is one of the Corporation’s three major service initiatives.
Approximately three-quarters of all AmeriCorps grant funding goes to state service commissions,
which award competitive grants to nonprofit groups that then recruit AmeriCorps members to
respond to local needs.

The Montana Governor’s Office of Community Service, a State agency that is the administrative
arm of the Montana Commission on Community Service, administers Montana AmeriCorps
programs. OCS is associated with the State Department of Labor and Industry (DLI) for
administrative purposes only. OCS receives multiple awards from the Corporation including
AmeriCorps, Administrative, Professional Development and Training, and Disability grants. The
AmeriCorps grants are annual awards passed through OCS to eligible subgrantees that recruit and
select members who then earn living allowances and education awards. OCS AmeriCorps grants
funded 276 AmeriCorps members in Program Year (PY) 2005-2006 and 436 in PY 2006-2007.


EXIT CONFERENCE

We conducted an exit conference with OCS representatives on January 24, 2008. Following that
conference, we issued a draft report for comment to both OCS and the Corporation. OCS’s
response is in Appendix A and generally summarized in the body of the report. The Corporation
did not have specific comments but intends to respond in its management decision at a later date
(see Appendix B).




                                               3
January 22, 2008


Office of Inspector General
Corporation for National and Community Service


                            INDEPENDENT ACCOUNTANTS’ REPORT ON
                             APPLYING AGREED-UPON PROCEDURES


Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures Program for Corporation Awards to Grantees (including Subgrantees), dated
February 2007. These procedures were agreed to by the OIG solely to assist it in grant cost and
compliance testing of Corporation-funded Federal assistance provided to OCS for the awards
detailed below.

This agreed-upon procedures engagement was performed in accordance with standards
established by the American Institute of Certified Public Accountants (AICPA) and generally
accepted government auditing standards. The sufficiency of these procedures is solely the
responsibility of the OIG. Consequently, we make no representation regarding the sufficiency of
the procedures, either for the purpose for which this report has been requested or any other
purpose.

Our procedures covered testing of the following grants:

Program                     Grant No.      Award Period          AUP Period       Total Award
AmeriCorps-Competitive    03ACHMT001      09/03/03-12/31/06   08/01/05-12/31/06    $1,890,319
AmeriCorps-Competitive    06ACHMT001      08/01/06-07/31/09   08/01/06-03/31/07     2,065,102
AmeriCorps-Formula        03AFHMT001      09/11/03-09/10/06   09/01/05-09/10/06       439,894
AmeriCorps-Formula        06AFHMT001      08/15/06-08/14/09   08/15/06-03/31/07       434,962
Administrative            04CAHMT001      01/01/04-12/31/06   07/01/05-12/31/06       398,020
Administrative            07CAHMT001      01/01/07-12/31/09   01/01/07-06/30/07       129,239
Disability                04CDHMT001      01/01/04-12/31/06   07/01/05-12/31/06       153,209
Disability                07CDHMT001      01/01/07-12/31/09   01/01/07-06/30/07         74,000
PDAT                      05PTHMT001      01/01/05-12/31/07   07/01/05-06/30/07       322,500




                                               4
We performed testing at OCS and three of its six subgrantees sites, MCC, Literacy Support, and
Campus Corps. We selected and tested:

               80 Federal and 20 match-cost transactions at OCS
               30 Federal and 21 match-cost transactions at MCC
               40 Federal and 20 match-cost transactions at Literacy Support
               42 Federal transactions at Campus Corps

We also tested certain grant compliance requirements by sampling the files of 75 subgrantee
members. We performed all applicable testing procedures in the AUP Program on each sample
transaction or member file. At the request of the OIG, we expanded testing at Literacy Support
Corps to include timesheets for 23 additional members in PY 2005-2006 and 21 additional
members in PY 2006-2007.

           Subgrantee                                  PY 2005-2006     PY 2006-2007
           MCC                                               7                25
           Literacy Support Corps                            8                 7
           Literacy Support Corps - Timesheets Only         23                21
           Campus Corps                                     13                15

RESULTS OF AGREED-UPON PROCEDURES

The detailed results of our agreed-upon procedures on claimed costs are presented in Exhibit A
and the supporting schedules. As a result of applying our procedures, we questioned claimed
Federal-share costs of $57,798, education awards of $189,809, and student loan accrued interest
awards of $8,947. A questioned cost is an alleged violation of provision of law, regulation,
contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds or a finding that, at the time of testing, includes costs not supported by
adequate documentation.

Grant participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards and repayment of student loan interest accrued during the term of
service from the National Service Trust. These awards amounts are not funded by Corporation
grants and thus are not included in claimed costs. As part of our agreed-upon procedures and
using the same criteria as claimed costs, we determined the effect of our findings on education
and accrued interest award eligibility.

We summarized the results of testing grant compliance in Exhibit B. We were not engaged to,
and did not perform an examination, the objective of which would be expression of an opinion
on the subject matter. Accordingly, we do not express such an opinion. Had we performed other
procedures, other matters might have come to our attention that would have been reported.




                                                5
This report is intended solely for the information and use of the OIG, Corporation, OCS, and
U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Operations Managing Partner




                                               6
                                                                                          EXHIBIT A


                               MONTANA OFFICE OF COMMUNITY SERVICE
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                       CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                                                                         Questioned   Questioned
                                                                         Education     Accrued
Award                           Awarded       Claimed       Questioned    Awards       Interest     Reference

04CAHMT001                       $398,020     $193,535        $15,608                               Schedule A

07CAHMT001                       $129,239      $52,377           $300                               Schedule B

04CDHMT001                       $153,209      $77,295

07CDHMT001                        $74,000      $20,650

05PTHMT001                       $322,500     $204,997           $525                               Schedule C

03ACHMT001
   Montana Conservation Corps   $1,213,960   $1,213,960         $1,042                              Schedule D
   Literacy Support Corps          418,500      303,270         13,160      $63,124        $2,227   Schedule E
   Others                          257,859      208,402
Total                           $1,890,319   $1,725,632        $14,202      $63,124        $2,227
03AFHMT001
   Campus Corps                  $396,152     $355,693          $3,126      $23,514         $759    Schedule F
   Others                          43,742       39,815
Total                            $439,894     $395,508          $3,126      $23,514         $759

06ACHMT001
   Montana Conservation Corps   $1,297,800    $337,592                                              Schedule D
   Literacy Support Corps          418,500     268,073         $22,112      $91,221       $4,374    Schedule E
   Campus Corps                    348,802     107,997           1,925       11,950        1,587    Schedule F
Total                           $2,065,102    $713,662         $24,037     $103,171       $5,961

06AFHMT001                       $434,962     $242,966

Total                           $5,907,245   $3,626,622        $57,798     $189,809        $8,947




                                                        7
                                                                                    SCHEDULE A


                   MONTANA OFFICE OF COMMUNITY SERVICE
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                 SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                STATE ADMINISTRATIVE AWARD NO. 04CAHMT001


                                                             Amount           Notes
      Claimed Federal Costs                                  $193,535

      Questioned Federal Costs:
        Excess travel costs                                      $857           1
        Unmet match                                            14,751           2

      Total Questioned Federal Costs                          $15,608


1.   OCS claimed $1,497 of lodging expenses as Federal costs for OCS employees and
     commissioners for their attendance at the Board of Director’s meeting held in July 2005.
     OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
     Attachment B, 43.b., Lodging and subsistence, states that costs incurred for travel,
     including costs of lodging, shall be considered reasonable and allowable only to the
     extent such costs do not exceed charges normally allowed by a governmental unit in its
     regular operations as the result of the governmental unit’s written travel policy. The
     2004 State of Montana Travel Policy Section 1-0340.20, In State-Lodging
     Reimbursement rates in General states, “…except as provided in 1-0340.25, the
     maximum lodging reimbursement rate for in-state travel is the actual cost of lodging, not
     to exceed the federal per diem rate plus the applicable taxes on the allowable rate.”
     Section 1-0340.25, In-State Travel-Lodging Reimbursement at Actual Cost (No Cap)
     states that an agency director or designated approving authority may approve
     reimbursement of lodging at actual costs when applicable. Subsequent to the
     identification of this issue, OCS provided a blanket “Justification for Travel” form signed
     by the Commissioner of Montana Department of Labor for Commission travel. The
     lodging expenses were incurred in 2005 but the blanket form was not signed until
     November 2007. We questioned $857 of lodging costs in excess of State limits.

2.   We questioned $14,751 of Federal costs from unmet match requirements. OCS was
     required to meet a matching requirement of 50 percent for this grant. We calculated
     questioned Federal costs as follows:




                                              8
   Administrative Grant                           Amount         Notes
   Total Claimed (Federal & Match)                $796,040

   Less Questioned Costs:
     Excess travel costs claimed                      $857         1
     Unallowable costs: VISTA lunch                  1,450         a
     Weatherization Services                        27,195         b
   Total Questioned Costs                          $29,502

   Net Allowable Costs                            $766,538

   Claimed Federal Costs                          $398,020
   Eligible Federal costs ($766,538 x 50%)         383,269

   Questioned Federal Costs                        $14,751

a. OCS claimed as match $1,450 for the cost of a picnic for VISTA members. OMB
   Circular A-87, Attachment A, Paragraph C.3., Allocable costs, states that a cost is
   allocable to a particular cost objective if the goods or services involved are
   chargeable or assignable to such cost objectives in accordance with relative
   benefits received. VISTA is a separate program from the AmeriCorps program
   and any costs associated with that program are not allowable under the State
   Administrative award. We questioned the $1,450.

b. OCS claimed as match $27,195 of reimbursements to the Montana Department of
   Public Health and Human Services (DPHHS) for weatherization services and for
   materials purchased by the Human Resource Development Councils at the request
   of DPHHS. OCS entered into a memorandum of understanding with DPHHS to
   provide home weatherization after receiving a $50,000 donation from a private
   entity. DPHHS then entered into an agreement with the MCC to perform the
   weatherization services. MCC was to receive $216,000 to perform the
   weatherization services. Weatherization services were for program beneficiary’s
   homes, not for OCS facilities and therefore does not benefit and is not allocable to
   the State Administrative award.

   The Provisions for Program Development and Training, Disability Placement, and
   State Administrative Awards, 2006 Special Provisions, 3. Purpose of the State
   Administrative Awards, states that State Administrative grant funds are to support
   the operations of the Commission. In addition, OMB Circular A-87, Attachment
   A, Paragraph C.1., Factors affecting allowability of costs, states that costs must be
   necessary and reasonable for proper and efficient performance and administration
   of a Federal award. Further, Paragraph C.2., Reasonable costs states that in
   determining the reasonableness of a given cost, consideration must be given to
   whether the cost is a type generally recognized as ordinary and necessary for the
   operation of the governmental unit or the performance of the Federal award. We


                                     9
              questioned the $27,195 of weatherization services because they were not
              performed for OCS facilities.

OCS’s Response: OCS believes the travel expenditure in Note 1 was approved and did not
provide a response on the questioned costs in Note 2. a. and b. Under the State of Montana
Travel Policy, the Montana Commission Executive Director is the designated approving
authority and did approve the expenditure. OCS has made changes to procedures to be sure
correct forms are used for documentation for travel claims.

Accountants’ Comments: OCS provided an “Accounts Payable General Voucher” signed by the
former Executive Director and an email between the former Executive Director and DLI
discussing how the costs for the trip should be allocated. Neither document included
justification or approval for the excess travel costs.




                                              10
                                                                                      SCHEDULE B


                      MONTANA OFFICE OF COMMUNITY SERVICE
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                  STATE ADMINISTRATIVE AWARD NO. 07CAHMT001


                                                               Amount           Note
        Claimed Federal Costs                                   $52,377

        Questioned Federal Costs:
          Unallowable costs: gift certificate                      $300           1


1.     OCS claimed $300 for the costs of a gift certificate to a resort. OCS provided
       correspondence from the resort explaining that OCS purchased a gift certificate; however,
       OCS did not provide an explanation as to why the gift certificate was purchased. OCS
       only indicated that the gift certificate was a program expense. OMB Circular A-87, Cost
       Principles for State, Local, and Indian Tribal Governments, Attachment A, Paragraph
       C.1., Factors affecting allowability of costs, states that, to be allowable under an award,
       costs must be necessary and reasonable for proper and efficient performance and
       administration of Federal Awards. Further, OMB Circular A-87, Attachment B,
       Paragraph 14., Entertainment Costs, states that costs of entertainment, including
       amusement, diversion, and social activities, and any costs directly associated with such
       costs are unallowable. We questioned the $300.

OCS’s Response: OCS concurred with the questioned costs. OCS has corrected the policies and
procedures for recording grant expenses and is working with its fiscal agent to ensure that this
type of error will not occur again.




                                                11
                                                                                       SCHEDULE C


                     MONTANA OFFICE OF COMMUNITY SERVICE
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                   SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                          PDAT AWARD NO. 05PTHMT001


                                                               Amount           Notes
        Claimed Federal Costs                                  $204,997

        Questioned Federal Costs:
          Travel costs in excess of allowable limits                $525           1

1.     OCS claimed $906 of lodging expenses for OCS employees and commissioners for
       attendance at the Board of Director’s meeting held in July 2005. OMB Circular A-87,
       Cost Principles for State, Local, and Indian Tribal Governments, Attachment B, 43.b.,
       Lodging and subsistence, states that costs incurred for travel, including costs of lodging,
       shall be considered reasonable and allowable only to the extent that such costs do not
       exceed charges normally allowed by a governmental unit in its regular operations as the
       result of the governmental unit’s written travel policy. The 2004 State of Montana Travel
       Policy Section 1-0340.20, In State-Lodging Reimbursement rates in General states,
       “…except as provided in 1-0340.25, the maximum lodging reimbursement rate for in-
       state travel is the actual cost of lodging, not to exceed the federal per diem rate plus the
       applicable taxes on the allowable rate. Section 1-0340.25, In-State Travel-Lodging
       Reimbursement at Actual Cost (No Cap) states that an agency director or designated
       approving authority may approve reimbursement of lodging at actual costs when
       applicable. Subsequent to the identification of this issue, OCS provided a blanket
       “Justification for Travel” form signed by the Commissioner of Montana Department of
       Labor for Commission travel. The lodging expenses were incurred in 2005 but the
       blanket form was not signed until November 2007. We questioned $525 of lodging costs
       in excess of State limits.

OCS’s Response: OCS believes the travel expenditure was approved. Under the State of
Montana Travel Policy, the Montana Commission Executive Director is the designated
approving authority and did approve the expenditure. OCS has made changes to its procedures
to be sure correct forms are used for documentation for travel claims.

Accountants’ Comments: OCS provided an “Accounts Payable General Voucher” signed by the
former Executive Director and an email between the former Executive Director and DIL
discussing how the costs for the trip should be allocated. Neither document included
justification or approval for the excess travel costs.




                                               12
                                                                                     SCHEDULE D


                      MONTANA OFFICE OF COMMUNITY SERVICE
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                           MONTANA CONSERVATION CORPS


                                       PY 2005-2006          PY 2006-2007
                                          Totals                Total                Note
     Claimed Federal Costs              $1,213,960             $337,952

     Questioned Federal Costs                 $1,042                                  1


1.      Sampled PY 2005-2006 expenditures included $733 and $309 for member graduation
        expenses. The $733 of graduation expenditures was for a lunch buffet at the member
        graduation ceremony. The $309 of graduation expenditures was for a member
        recognition and graduation dinner at a restaurant. Per the Corporation’s June 2006
        negotiation letter, graduation costs are unallowable. Graduation meals were included in
        MCC’s approved budget under member training. Group recognition and morale boosters
        were included in the approved budget under match costs. Additionally, the AmeriCorps
        Application instructions (2005) Appendix E Budget Instructions, I Other Operating Cost,
        states gifts/or food in an entertainment event setting are not allowable costs. We
        questioned $1,042 on the basis of the Corporation’s June 2006 negotiation letter and the
        application instructions.

OCS’s Response: OCS concurred with the questioned costs. The subgrantee has corrected the
policies and procedures to reflect the correct category for this type of expenditure. OCS will be
developing more detailed guidance to correct compliance issues.




                                                13
                                                                                      SCHEDULE E


                       MONTANA OFFICE OF COMMUNITY SERVICE
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                               LITERACY SUPPORT CORPS


                                                          PY 2005-2006   PY 2006-2007
                                                             Totals         Totals        Notes
Claimed Federal Costs                                      $303,270       $268,073

Questioned Federal Costs:
 Returning members without prior year final evaluation                     $14,528            1
 Incremental living allowance                                $5,608          3,259            2
 Member support costs paid to education award only
     members                                                  5,096           3,719           3
 Unallowable administrative costs                             1,925                           4
 Unsupported costs, consultant services                                        525            5
 Unsupported costs, orientation lunch                           236                           6
 Unallowable costs, graduation lunch                            195                           7
 Unsupported costs, gas stipends                                100              35           8
 Unallowable costs, entertainment costs                                          46           9
Total Questioned Federal Costs                              $13,160         $22,112

Questioned Education Awards:
  Holiday bonus hours and personal leave                    $49,681        $42,608           10
  WBRS hours discrepancies                                   10,450         16,675           11
  Service after end of service term                           1,000          9,450           12
  Reading hours                                                              9,450           13
  Returning members without prior year final evaluation                      9,450            1
  Service before signed contract                                             3,588           14
  Estimated service hours                                     1,250                          15
  Lack of compelling personal circumstances                     743                          16
Total Questioned Education Awards                           $63,124         $91,221

Questioned Accrued Interest                                  $2,227          $4,374          17



1.      Literacy Support did not provide an end-of-term evaluation for two PY 2005-2006
        members who served second terms. AmeriCorps Special Provisions 2005-2006, IV D.6.,
        Performance Reviews, requires mid-term and end-of-year member performance
        evaluations. According to 45 CFR § 2522.220(c), Eligibility for Second Term, a
        participant is not eligible for a second or additional term of service and/or for an
        AmeriCorps education award without a satisfactory performance evaluation. We
        questioned the members’ PY 2006-2007 Federal-share living allowance and fringe


                                                  14
     benefits of $14,528 and earned education awards of $9,450 because, without a final
     evaluation at the end of their first term, the members were ineligible for a second term.

2.   Literacy Support paid an incremental living allowance to members who started service
     late. For instance, one member who started service in August 2006 received a living
     allowance of $530 twice per month and one member who started service in November
     2006 received a living allowance of $589 twice per month. Both members had each
     received a total of $10,600 in living allowance by the conclusion of their service. In PY
     2005-2006, ten Literacy Support members received incremental living allowance
     payments. In PY 2006-2007, five Literacy Support members received incremental living
     allowance payments. AmeriCorps Special Provisions (2005-2006), IV I.1., Living
     Allowance Distribution, states that programs should pay the living allowance in regular
     increments, such as weekly or bi-weekly, paying an increased increment only for
     increased living expenses, such as food, housing, or transportation. In addition, payments
     should not fluctuate based on the number of hours served in a particular period, and must
     cease when a member concludes a term of service. Further, if a member enrolls after the
     program’s start date, the program may not increase the member’s incremental payment.
     Literacy Support was unaware that a living allowance should only be paid while a
     member is serving and was unaware that increasing incremental amount of living
     allowance was not permitted. We questioned $5,608 of PY 2005-2006 incremental living
     allowance payments for seven members and $3,259 of PY 2006-2007 incremental living
     allowance payments for five members. We did not question the living allowance for
     three PY 2005-2006 members who started service prior to September 6, 2005, the date
     the AmeriCorps provision was updated.

3.   Literacy Support claimed the living allowance of two PY 2005-2006 members and three
     PY 2006-2007 members that were identified in WBRS as Education Award Only
     members. Literacy Support believed that OCS changed the members’ status from
     Education Award Only members to Living Allowance and Education Award members;
     however, Literacy Support was unable to provide documentation of the change. We
     questioned $5,096 of living allowances and related benefits for the two PY 2005-2006
     members and $3,719 of living allowances and related benefits for the three PY 2006-
     2007 members.

4.   Literacy Support claimed administrative expenses of $19,147 for PY 2005-2006 that
     exceeded the allowable administrative percentages by $1,925. In lieu of an indirect cost
     agreement, grantees may charge a fixed five percent of Federal funds expended for
     administrative costs. OCS passed on the fixed five percent to Literacy Support. Literacy
     Support was unaware that it had exceeded allowable administrative expenses because it
     claimed less administrative expenses than were budgeted. We questioned $1,925 of
     administrative costs as calculated below:




                                              15
       PY 2005-2006                                                        Amount
       Claimed Corporation Expenditures                                    $346,560
       Less: Claimed Administrative (Section III) Expenditures               19,147
       Total Claimed Section I&II Expenditures                             $327,413

       Claimed Administrative Costs                                          $19,147
       Allowable Administrative Costs ($327,413 x 5.26%)                      17,222

       Excess Administrative Costs                                            $1,925

5.   In PY 2006-2007, a contractor was paid $525 for conducting training classes. The only
     documentation supporting the expenditures was an invoice typed on a Microsoft Word
     document. The individual that conducted the training did not sign the invoice. Literacy
     Support did not develop a written contract with the individual that performed the training
     to establish an agenda for the training or a compensation rate. OMB Circular A-122 Cost
     Principles for Non-Profit Organizations, Attachment A. Paragraph A.2., Factors
     affecting allowability of costs, states an award cost must be adequately documented to be
     allowable. Further, Attachment B, Paragraph 37, Professional Services Costs, states that
     one of the relevant factors in determining the allowablity costs is the adequacy of the
     contractual agreement for the service. We questioned the $525.

6.   In June 2006, Literacy Support claimed $236 for an orientation lunch. Literacy Support
     did not have documentation, such as an itemized bill from the restaurant, to support the
     claimed costs. The only documentation provided by Literacy Support was a check
     request form and a “Receipt” form summarizing the quantity and amount of items
     purchased. Without an itemized receipt or other documentation from the restaurant, we
     could not determine the allowability of claimed costs. Although Literacy Support
     identified the June 2006 lunch as an orientation lunch, its PY 2006-2007 members did not
     start their service until August 2006. OMB Circular A-122 Cost Principles for Non-
     Profit Organizations, Attachment A Paragraph A.2., Factors affecting allowability of
     costs, states an award cost must be adequately documented to be allowable. We
     questioned the $236.

7.   In June 2006, Literacy Support claimed $195 for a graduation lunch. Literacy Support
     did not have documentation, such as an itemized receipt from the restaurant, to support
     claimed costs. The only documentation provided by the subgrantee was a “Guest Check”
     form that indicated $195 of meals was purchased. Without an itemized receipt, we could
     not determine the allowability of the costs. OMB Circular A-122 Cost Principles for
     Non-Profit Organizations, Attachment A Paragraph A.2., Factors affecting allowability
     of costs, states an award cost must be adequately documented to be allowable. Further,
     per the Corporation’s June 2005 negotiation letter with OCS, food costs are unallowable.
     Additionally, the AmeriCorps Application instructions (2005) Appendix E Budget
     Instructions, I Other Operating Cost, states gifts/or food in an entertainment event setting
     are not allowable costs. We questioned the $195.


                                              16
8.    Sampled PY 2005-2006 and 2006-2007 expenditures included gas stipends provided to
      members. In December 2005, one member received a $100 stipend and in October 2006
      one member received a $35 gas stipend. OMB Circular A-122 Cost Principles for Non-
      Profit Organizations, Attachment A. Paragraph A.2., Factors affecting allowability of
      costs, states an award cost must be adequately documented to be allowable. Further,
      Literacy Support financial polices states that mileage will be paid at published rates and
      will be reimbursed on an actual cost basis as defined by each program director. Literacy
      Support decided to provide its members with a monthly gas stipend because it would cost
      less than reimbursing members for actual mileage costs. Literacy Support was unable
      provide any documentation to display the methodology used to calculate the stipends or
      the distance traveled by the two members. We questioned $135 of sampled gas stipends.

9.    In January 2007, Literacy Support claimed $46 of food expenses for a staff bowling
      luncheon. OMB Circular A-122, Cost Principles for Non-Profit Organizations,
      Attachment B, Paragraph 14, Entertainment Costs, states that costs of entertainment,
      including amusement, diversion, and social activities and any costs directly associated
      with such costs (such as tickets to shows or sports events, meals, lodging, rentals,
      transportation, and gratuities) are unallowable. Literacy Support considered these costs
      to be allowable as morale boosting costs. We questioned the $46.

10.   Sampled Literacy Support members recorded holiday bonus hours and personal leave on
      their timesheets. At the request of the OIG, we expanded member timesheet testing for
      23 additional members in PY 2005-2006 and 21 additional members in PY 2006-2007.
      The following table identifies the number of members that had holiday bonus hours and
      personal leave recorded on their timesheets.

                                                                       Education
                                                                        Awards
          Description                                    Instances     Questioned
          Holiday Bonus Hours                                43            16
          Personal Leave                                     19             9
          Holiday Bonus Hours and Personal Leave              1             1


      The 2002-2003 Program Director’s Handbook, What are the requirements for earning an
      education award?, Minimum service requirements for AmeriCorps members and the
      2006-2007 Montana AmeriCorps Program Director’s Guide, AmeriCorps Selection,
      Terms of Service, state that holidays, leave time, and other absences may not be counted
      toward service hours, but should be included in the programmatic year. Literacy Support
      believed that holiday bonus hours were allowable because it mirrored a VISTA program
      that gave members holiday and personal leave hours. PY 2006-2007 members were not
      provided with personal leave after the program director learned at a conference that
      personal leave could not be counted as service and the program director noticed that
      members were saving and using all of their leave at the end of the program year.




                                              17
            We questioned the education awards of $14,241 for six PY 2005-2006 members
             and education awards of $42,608 for 10 PY 2006-2007 members who did not
             meet the minimum service hours required for education awards when we deleted
             holiday bonus hours. We also questioned the education awards for eight PY
             2005-2006 members and six PY 2006-2007 members. The education awards for
             these members are included in the questioned education awards for personal leave
             below and in Notes 11, 12, 13, 14, and 15.

            We questioned education awards of $33,077 for nine PY 2005-2006 members
             who did not meet the minimum service hours required for education awards when
             we deleted personal leave hours. The education awards for two additional
             members are included in the education awards questioned in Note 13 and the
             education awards for two additional members included in the education awards
             questioned for holiday bonus hours above.

            We questioned the education award of $2,363 for one PY 2005-2006 member that
             did not meet the minimum service hours required for an education award when
             we deleted holiday bonus hours and personal leave hours.

11.   Timesheets did not support hours recorded in WBRS for six of eight sampled members in
      PY 2005-2006 and four of seven sampled members in PY 2006-2007. As discussed in
      Schedule E, Note 10, we expanded WBRS member timesheet testing for 23 additional
      members in PY 2005-2006 and 21 additional members in PY 2006-2007. Timesheets did
      not support WBRS hours for these 13 additional members in PY 2005-2006 and 13
      additional members in PY 2006 -2007.

      AmeriCorps Special Provisions (2005-2006), IV C.2., AmeriCorps Member, requires that
      grantees keep time-and-attendance records for all AmeriCorps members to document
      their eligibility for in-service and post-service benefits. The Corporation uses time-and-
      attendance information in WBRS to track member status, which forms the basis for
      calculating education awards.

      Literacy Support officials said calculation errors were made when they totaled timesheet
      hours and reported the hours in WBRS. We questioned education awards of $10,450 for
      three PY 2005-2006 members and $16,675 for five 2006-2007 members because they did
      not meet the minimum-hour requirements to earn an education award.




                                              18
                                                                    Service
                                                                     Hours
                                    WBRS           Timesheet       Required
                  Member            Hours            Hours        for Award
                    1              1,708.00         1,699.00       1,700.00
                    2              1,714.50         1,692.00       1,700.00
                    3                351.50           261.50         300.00
                    4                451.25           368.25         450.00
                    5              1,702.75         1,685.75       1,700.00
                    6              1,703.50         1,613.50       1,700.00
                    7                452.50           435.00         450.00
                    8              1,702.50         1,695.00       1,700.00

12.   Four members were exited from WBRS with certification of eligibility for full education
      awards without completing the minimum service required to earn an education award,
      (one member in PY 2005-2006 and three members in PY 2006-2007). The members
      needed additional time to complete their minimum service requirements. Literacy
      Support officials said they believed it would not be fair to deny the members’ education
      awards since the members were dedicated volunteers and Literacy Support believed that
      members would complete their service requirements. We deducted the hours served by
      the members after the end of the members’ term of term and questioned education awards
      of $1,000 for one PY 2005-2006 member and $9,450 for two PY 2006-2007 members.
      The education award for one additional PY 2006-2007 member is included in the
      questioned education awards in Note 11.

13.   Members recorded time spent reading books as service and training hours. Reading
      books is inconsistent with the service and training activities specified in Literacy
      Support’s application narrative. Literacy Support felt that reading hours would suffice as
      service hours because the required reading provided the members with a perspective on
      the type of people they would be interacting with during their service. We deducted the
      reading hours and questioned education awards of $9,450 for two PY 2006-2007
      members. The education award for one PY 2005-2006 member is included in the
      questioned education awards in Note 10. The education award for one additional PY
      2006-2007 member is included in the questioned education awards in Note 11.

14.   Members started service before signing member contracts (six in PY 2005-2006 and five
      in PY 2006-2007). AmeriCorps Special Provisions (2005-2006), C.1., Member
      Enrollment Procedures, states that an individual is enrolled as an AmeriCorps member
      when he or she signs a member contract. Literacy Support officials said they were
      unaware that the member contract had to be signed on or before the day that the members
      started service and believed that it had 30 days after the member started service to obtain
      the signed member contract.

      We questioned the education awards for three PY 2005-2006 and three PY 2006-2007
      members who did not meet the minimum service hours required for full-time, part-time,


                                              19
      and minimum-time education awards when we deleted hours for service performed
      before member contracts were signed, as detailed below:

                                   Hours
                                   Before      Eligible   Service Hours
         WBRS       Timesheet      Signed      Service    Required for         Questioned
Member    Hours       Hours       Contract      Hours        Award           Education Award
  1        222.75       221.50      27.50        194.00       222.75             Note 16
  2      1,708.00     1,699.00        8.50     1,690.50     1,700.00             Note 11
  3      1,701.25     1,701.25        9.00     1,692.25     1,700.00             Note 10
  4        300.00       307.00      24.50        282.50       300.00              $1,000
  5      1,576.50     1,576.50      81.00      1,495.50     1,576.50                $225
  6        915.50       915.50     705.00        210.05       900.00              $2,363

15.   Estimated service hours were added to the last timesheet of one PY 2005-2006 member.
      AmeriCorps Special Provisions (2005-2006), IV C.2., AmeriCorps Member, requires that
      grantees keep time-and-attendance records for all AmeriCorps members to document
      their eligibility for in–service and post-service benefits. Time and attendance records
      must be signed and dated both by the member and by an individual with oversight
      responsibilities for the member. At the end of the member’s service, the member felt that
      she had failed to record the actual number of hours served. Therefore, the member
      calculated an estimate of the number of additional hours served and provided the estimate
      to the Program Coordinator. The Program Coordinator worked closely with the member,
      and felt that the estimate was accurate and added the hours to the last timesheet. We
      deducted the estimated service hours added to the last timesheet and questioned the
      member’s education award of $1,250.

16.   One PY 2005-2006 Literacy Support member was exited from the program due to
      compelling personal circumstances and was awarded a partial education award. The
      member called Literacy Support to explain the circumstances for her departure. Literacy
      Support documented the circumstances explained by the member during the telephone
      conversation but did not obtain documentation from the member to support the
      compelling personal circumstances. According to 45 CFR §2522.230, Under what
      circumstances may AmeriCorps participants be released from completing a term of
      service, and what are the consequences?, an AmeriCorps program may release a
      participant from completing a term of service for compelling personal circumstances as
      demonstrated by the participant. Literacy Support did not have any documentation from
      the member. We questioned the member’s partial education award of $743.

17.   Nine Literacy Support members whose education awards were questioned in Notes 10,
      11, 13, and 14 had accrued interest payments made by the Corporation.

      45 CFR §2529.10 (a) Eligibility, states that the Corporation will pay interest that accrues
      on an individual’s qualified student loan only if the member successfully completes a
      term of service in an approved AmeriCorps position.



                                               20
       We questioned accrued interest payments made by the Corporation of $6,601 ($2,227 for
       five PY 2005-2006 members and $4,374 for four PY 2006-2007 members) for members
       that did not successfully complete terms of service.

OCS’s Response: OCS concurred with the questioned costs in Notes 2 through 9 and did not
provide a response to the questioned costs, questioned education awards, and questioned accrued
interest payments in Notes 1, 10, 12, 13, 14, 16, and 17. OCS did not concur with the questioned
costs and education awards in Notes 3, 11, and 16. Its responses are summarized below:

             Note 3. OCS believes that approval was given and will be working with the
              Corporation to provide that documentation.

             Note 11. OCS believes the WBRS and timesheet data presented by the auditors
              may have incorrect calculations.

             Note 16. OCS feels that the documentation provided in WBRS, members
              timecard and personal contract was correct documentation as 45CFR §2522.230
              does not specify a type of documentation required.

Accountants’ Comments: Our specific comments on Notes 3, 11 and 16 follow:

             Note 3. As discussed above, WBRS indicated that the members were education
              award only members and Literacy Support did not provide any other
              documentation to support a change in member status.

             Note 11. The WBRS and timesheet data was emailed to the subgrantee on
              November 26, 2007. The January 24, 2008 exit conference was the first
              indication from the subgrantee that they believed the WBRS and timesheet data
              were incorrect. Neither OCS nor the subgrantee provided documentation to
              support their assertions.

             Note 16. As discussed above, 45CFR §2522.230 requires the participant to
              demonstrate compelling personal circumstances. Literacy Support did not have
              any documentation from the member to support compelling personal
              circumstances.




                                              21
                                                                                       SCHEDULE F


                       MONTANA OFFICE OF COMMUNITY SERVICE
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                   CAMPUS CORPS


                                                        PY 2005-2006     PY 2006-2007
                                                           Totals           Totals           Notes
Claimed Federal Costs                                     $355,693         $107,997

Questioned Federal Costs:
 Unallowable living allowance: 100% Federal share            $1,457                            1
 Unallocable costs, annual report and conference                380           $1,880           2
 Unallowable living allowance: living allowance paid
    after member completed service                              883                            3
 Unallocable costs, wrong program                               310                            4
 Unallowable costs, entertainment                                96               45           5

Total Questioned Federal Costs                               $3,126           $1,925

Questioned Education Awards:
   WBRS hours discrepancies                                  $3,613           $1,250           6
   Service before signed contract                            19,901           10,700           7
Total Questioned Education Awards                           $23,514          $11,950

Questioned Accrued Interest                                    $759           $1,587           8

 1.     Campus Corps claimed 100 percent of the living allowance for one member in PY 2005-
        2006. The 45 CFR §2522.240, What financial benefits do AmeriCorps participants
        serving in approved AmeriCorps positions receive? (5) Limitation on Federal share,
        states that the Federal share including, Corporation and other Federal funds, of the total
        amount provided to an AmeriCorps participant for a living allowance may not exceed 85
        percent of the minimum required living allowance. Campus Corps officials stated that
        they erroneously claimed 100 percent of the members’ living allowance as Federal costs.
        We questioned $1,457, the 15 percent of excess Federal living allowance.

 2.     Campus Corps claimed $380 of annual report printing costs in PY 2005-2006 and $3,780
        of conference costs in PY 2006-2007. The Building Engaged Citizens conference
        included participants from non-AmeriCorps programs, but the entire cost of the
        conference was allocated to the AmeriCorps Program. OMB Circular A-21, Cost
        Principles for Educational Institutions, Paragraph C.4., Allocable costs states a cost is
        allocable to a particular cost objective if the goods or services involved are chargeable or
        assigned to such cost objective in accordance with relative benefits received. Campus
        Corps officials said they did not have a system for allocating costs and tried to allocate

                                                 22
     expenses among programs as equitably and evenly as possible, but at times allocated all
     of the expenses for specific items to one cost objective. We could not determine the
     portion of annual report printing costs that were allocable to the AmeriCorps program.
     Of the $3,780 conference costs, $1,900 were allocable to the AmeriCorps program and
     $1,880 were not allocable. We questioned the $380 of annual report printing costs and
     $1,880 of conference costs.

3.   Campus Corps claimed $883 of living allowance paid to a member after the member had
     ended their service. The member completed their service in July 2006, but was paid a
     living allowance through August 2006. AmeriCorps Special Provisions (2005-2006), IV
     I.1., Living Allowance Distribution, states that payments should not fluctuate based on the
     number of hours served in a particular time period, and must cease when a member
     concludes a term of service. The member was identified as a “contract professional” in
     the payroll system and Campus Corps did not have a system in place to notify the payroll
     office to end payments at the completion of the member’s service. We questioned $883.

4.   Campus Corps claimed $310 of training costs for another Campus Corps program not
     affiliated with AmeriCorps. OMB Circular A-21, Cost Principles for Educational
     Institutions, Paragraph C.4., Allocable costs states that a cost is allocable to a particular
     cost objective if the goods or services involved are chargeable or assigned to such cost
     objective in accordance with relative benefits received. Campus Corps erroneously
     claimed the training costs on the AmeriCorps grant. We questioned the $310.

5.   Campus Corps claimed $141 of gifts and entertainment expenses as follows:

           In PY 2005-2006, Campus Corps claimed $40 for a sweatshirt purchased for a
            member as a welcome to campus gift and $30 for thank-you gifts for Campus
            Corps team leaders.

           In PY 2006-2007, Campus Corps claimed $45 for a sweatshirt purchased for an
            individual that provided training at no cost.

           Campus Corps also claimed an additional $26 of entertainment expenses in PY
            2005-2006. The expenses were recorded in the general ledger as entertainment
            expenses, but documentation identifying the type of entertainment expense was
            not provided.

     AmeriCorps Application Instructions (2005), Appendix E Budget Instructions, I Other
     Operating Costs, states gifts and/or food in an entertainment/ event setting are not
     allowable costs. We question the $40 and $30 gifts to members based on the Application
     instructions.

     OMB Circular A-21, Cost Principles for Educational Institutions, Paragraph J.15.
     Donations and contributions states the value of these services is not reimbursable either
     as a direct or indirect cost. However, the value of donated services may be used to meet



                                               23
     cost sharing or match requirements in accordance with 45CFR§2543.23 Cost sharing and
     matching. We question the $45.

     OMB Circular A-21, Cost Principles for Educational Institutions, Paragraph J.17.
     Entertainment costs, states costs of entertainment, including amusements, diversion, and
     social activities and any costs directly associated with such costs are unallowable. We
     question the $26.

6.   Timesheets did not support hours recorded in WBRS (four members in PY 2005-2006
     and four members in PY 2006-2007). The timesheets for one PY 2005-2006 member
     were not in the member file at the time of the site visit, but were subsequently provided
     by the subgrantee.

     AmeriCorps Special Provisions (2005-2006), IV C.2., AmeriCorps Member, requires that
     grantees keep time-and-attendance records for all AmeriCorps members to document
     their eligibility for in-service and post-service benefits.

     Campus Corps officials stated that calculation errors were made when program officials
     totaled timesheet hours and reported the hours in WBRS. We questioned education
     awards of $3,613 for two PY 2005-2006 members and $1,250 for one 2006-2007
     member because they did not meet the minimum-hour requirements to earn an education
     award.

                                                                 Questioned
                                  WBRS            Timesheet      Education
                 Member           Hours             Hours         Award
                   1              900.00            898.00        $2,363
                   2              463.00            440.00        $1,250
                   3              450.25            431.25        $1,250

7.   Members started service before signing member contracts (nine in PY 2005-2006 and
     eight in PY 2006-2007). AmeriCorps Special Provisions (2005-2006) IV C.1., Member
     Enrollment Procedures, states that an individual is enrolled as an AmeriCorps member
     when he or she signs a member contract. The current program director could not explain
     why the member contracts were signed after the members started service.

     We questioned education awards for seven members PY 2005-2006 and four members
     PY 2006-2007 who did not meet the minimum service hours required for full-time, part-
     time, and minimum-time education awards when we deleted hours for service performed
     before member contracts were signed, as detailed below:




                                             24
                                      Hours                         Service
                                      Before          Eligible      Hours
            WBRS       Timesheet      Signed          Service      Required       Questioned
Member      Hours        Hours       Contract         Hours       for Award     Education Award
   1          900.00       898.00        34.00          864.00         900.00       Note 6
   2        1,702.75      1702.75        30.50        1,672.25       1,700.00       $4,725
   3          905.00       905.00        15.00          890.00         900.00       $2,363
   4          902.50       902.50        46.50          856.00         900.00       $2,363
   5          303.00       303.00       303.00             0.00        300.00       $1,000
   6        1,701.00     1,701.00        21.50        1,679.50       1,700.00       $4,725
   7        1,700.75     1,700.75         5.50        1,695.25       1,700.00       $4,725
   8        1,707.50     1,707.50        36.00         1671.50       1,700.00       $4,725
   9        1,700.00     1,700.00        17.00        1,683.00       1,700.00       $4,725
  10          450.25       431.25         6.50          424.75         450.00       Note 6
  11          450.00       449.50        21.00          428.50         450.00       $1,250


8.     Three Campus Corps members whose education awards were questioned in Note 14 had
       accrued interest awards paid by the Corporation.

       45 CFR §2529.10 (a) Eligibility, states that the Corporation will pay interest that
       accumulates on an individual’s qualified student loan if the member successfully
       completes a term of service in an approved AmeriCorps position.

       We questioned accrued interest payments made by the Corporation of $2,346 ($759 for
       one PY 2005-2006 member and $1,587 for two PY 2006-2007 members) because the
       members did not complete their term of service.

OCS’s Response: OCS concurred with the questioned costs in Notes 1 through 6 and did not
provide a response to the questioned education awards and questioned accrued interest payments
in Notes 7 and 8.




                                                 25
                                                                                            EXHIBIT B


                           MONTANA OFFICE OF COMMUNITY SERVICE
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                                    COMPLIANCE RESULTS



1.      OCS and its subgrantees claimed unallowable and unsupported costs.

     The notes to Schedules A through F describe questioned costs of $57,798, which are summarized
     on Exhibit A. A questioned cost is an alleged violation of provision of law, regulation, contract,
     grant, cooperative agreement, or other agreement or document governing the expenditure of
     funds or a finding that, at the time of testing, such cost is not supported by adequate
     documentation.

     Recommendations:
        1. a. We recommend that the Corporation recover the disallowed costs.
        1. b. In addition, we recommend that the Corporation recover the administrative costs
               related to the disallowed costs.

     OCS’s Response: OCS’s specific comments on questioned costs are detailed in Schedules A
     through F.

     Accountants’ Comments: We continue to make the recommendations as described above.


2.      OCS did not ensure that its subgrantees completed required member criminal
        background checks before members served with children.

     Literacy Support and Campus Corps did not complete background checks for some members
     until after the members began service with children. In addition, Literacy Support did not
     conduct any background checks for some members who performed service with children.

                   Literacy Support did not conduct background checks on two PY 2005-2006
                    members serving second terms. Literacy Support officials said they did not think
                    that background checks were required for returning members because they had
                    undergone background checks during the prior program year.

                   Literacy Support did not complete background checks for one PY 2005-2006
                    member and one PY 2006-2007 member until after the members started their
                    service with children. The completion time for background checks were 97 and
                    159 days, respectively, after the start of service. The subgrantee attributed the
                    delay to an oversight.



                                                    26
             Campus Corps did not complete background checks for six PY 2005-2006
              members and for four PY 2006-2007 members until after the members started
              service with children. In addition, the results of the background check for one of
              the PY 2006-2007 members could not be determined because the background
              check was maintained offsite. Campus Corps officials said they were aware that
              background checks were required for members, but were unclear as to when the
              checks needed to be completed.

The AmeriCorps Special Provisions (2005-2006), IV C.7., Criminal Background Checks,
requires that, to the extent permitted by state law, criminal record checks be conducted on
members over the age of 18 who have access to children as part of the pre-service screening
process.

Without background checks, members with criminal records could have contact with children,
resulting in potential liability for the program’s young clients, the subgrantee, OCS, and the
Corporation.

Recommendations:
   2. a. We recommend that the Corporation require OCS to strengthen its subgrantee training
         to ensure that background checks are performed before members serve with children.
   2. b. We recommend that the Corporation require OCS to strengthen its program
         monitoring to ensure that background checks are performed before members serve
         with children.
   2. c. We also recommend that the Corporation follow up after additional training is
         provided, and monitoring procedures are in place, to ensure that all OCS subgrantees
         comply with background check requirements.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS intends
to work with the Corporation during the resolution process to make necessary changes to resolve
the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.

3. All subgrantees tested had weaknesses in member timekeeping procedures.

As discussed in Schedule E, we identified instances in which members recorded holiday bonus
hours and personal leave as service, on their timesheets.

                                                                 Education      Questioned
                                                                  Awards        Education
    Description                                     Instances    Questioned      Awards
    Holiday Bonus Hours                                 43           16          $56,849
    Personal Leave                                      19            9           33,077
    Holiday Bonus Hours and Personal Leave               1            1            2,363




                                               27
The 2002-2003 Program Director’s Handbook, What are the requirements for earning an
education award?, minimum service requirements for members, and the 2006-2007 Montana
AmeriCorps Program Director’s Guide, AmeriCorps Selection, Terms of Service, states that
holidays, leave time, and other absences may not be counted toward service hours, but should be
included in the programmatic year. Literacy Support officials said they believed that holiday
bonus hours were allowable because their program mirrored a VISTA program that gave
members holiday and personal leave hours. PY 2006-2007 members were not provided with
personal leave after the program director learned at a conference that personal leave could not be
counted as service and the program director noticed that members were saving and using all of
their leave at the end of the program year.

As discussed in Schedule E, we also identified instances where member hours spent reading
books were counted as service, estimated hours were recorded on timesheets, and service hours
were recorded after the end of the members’ term of service:

              Members recorded time reading books on feminism as service and training hours.
               Reading books is inconsistent with the service and training activities specified in
               Literacy Support’s application narrative. Literacy Support officials said they
               believed that reading hours would suffice as service hours because the required
               reading provided the members with a perspective on the type of people they
               would be interacting with during their service. We do not consider books on
               feminism or other reading necessary training for members serving in adult literacy
               and related educational programs. As a result of deducting reading hours for the
               total of service hours, we questioned the education awards for one PY 2005-2006
               member and two PY 2006-2007 members.

              Estimated service hours were added to the last timesheet of one PY 2005-2006
               member. At the end of the member’s service, the member felt that she failed to
               record the actual number of hours served. Therefore, the member calculated an
               estimate of the number of additional hours served. The Program Coordinator
               worked closely with the member, and felt that the estimate was accurate and
               added the hours to the last timesheet for the member. We questioned the
               member’s education award.

              One PY 2005-2006 member and three PY 2006-2007 members were exited from
               WBRS with full education awards without completing the minimum service hours
               required. Literacy Support believed the members would complete their service
               requirements and awarded the members their full education awards. We
               questioned the education awards for the members.


Literacy Support and Campus Corps timesheets did not support member eligibility for some
education awards and, in some instances, timesheet hours were not always accurately recorded in
WBRS. We initially tested timesheets for 75 members at MCC, Literacy Support, and Campus
Corps. As noted in finding number three, we expanded the timesheet testing at the request of the



                                                28
 OIG by an additional 44 members. Service hours recorded in WBRS were not supported by
 member timesheets as follows:

 Subgrantee                                Tested      PY 2005-2006     PY 2006-2007     Totals
 MCC                                        32               0                0             0
 Literacy Support                           15               6                4            10
 Literacy Support - Timesheets Only         44              13               13            26
 Campus Corps                               28               4                4             8

 In many cases, these differences affected member eligibility to earn an education award because
 the timesheet-supported service hours did not meet the Corporation’s requirements. Specifically:

                  In PY 2005-2006 and 2006-2007, eight Literacy Support members did not meet
                   minimum service hours required for education awards. We questioned education
                   awards of $27,125.

                  In PY 2005-2006 and 2006-2007, three Campus Corps members did not meet
                   minimum service hours required for education awards. We questioned education
                   awards $4,863.

 AmeriCorps Special Provisions (2005-2006), IV C.2., AmeriCorps Members requires that
 grantees keep time-and-attendance records for all AmeriCorps members to document their
 eligibility for in-service and post-service benefits. AmeriCorps Special Provisions (2005-2006),
 IV E.1, Program Requirements, states that to be eligible for an education award, the member
 must complete the term of service and hours:

                  Full-time members must serve at least 1,700 hours;
                  Half-time members must serve at least 900 hours;
                  Reduced half-time members must serve at least 675 hours;
                  Quarter-time members must serve at least 450 hours; and
                  Minimum-time members must serve at least 300 hours.

 Literacy Support and Campus Corps did not have procedures in place to verify the accuracy of
 hours recorded in WBRS or to ensure that all member time was properly reported.

 During testing, we noted some weaknesses in timekeeping procedures. A summary of timesheet
 discrepancies by subgrantee follows:

                                                                                       12 or More
                                                                        Changes         Service
                       Not     Missing     Not    Prepared Whiteout       Not          Hours Per
Subgrantee            Dated   Signatures Original in Pencil Corrections Initialed         Day
MCC                    32          0       28         0         12          1              21
Literacy Support       43         27       25        27         25         47              17
Campus Corps            8          5        5        11          8         19               4
Total
                       83        32         58          38         45         67           42

                                                  29
              A Microsoft Word document with typed dates and service hours was provided as
               a timesheet for one PY 2005-2006 Literacy Support member. The document was
               initialed and dated by the supervisor but was not signed or dated by the member.

              One PY 2006-2007 Literacy Support member timesheet had service hours
               recorded on dates that did not exist. The member recorded 14 hours of service on
               November 31 and 6 hours of service on November 32.

              Some members at MCC, Literacy Support, and Campus Corps began their service
               before their WBRS enrollment date.

              Five Literacy Support and four Campus Corps members signed their timesheets
               before they completed all of the hours recorded on their timesheet for the period.

MCC, Literacy Support, and Campus Corps did not have adequate policies and procedures to
ensure that members and/or supervisors date all timesheets, initial all corrections, and maintain
original timesheets. Literacy Support and Campus Corps did not have procedures in place to
ensure that members and/or supervisors sign all timesheets, refrain from the use of whiteout and
pencil, record hours on official timesheets, sign timesheets after completing service hours, and
check accuracy of recorded hours.

AmeriCorps requirements do not specifically address timesheet procedures. It is, however, good
business practice to maintain original documents, initial changes, make corrections without
pencil or whiteout, sign and date documents, and check the accuracy of hours recorded on
timesheets. Without procedures to verify member activities or timesheet accuracy, the potential
exists that members may perform prohibited activities or may receive education awards to which
they are not entitled. By initialing changes, accountability is maintained that timesheets are
consistent with member and management intentions.

Recommendations:
   3. a. We recommend that the Corporation require OCS to strengthen its subgrantee training
         to ensure that subgrantees verify the accuracy and reasonableness of service hours
         recorded on timesheets, maintain member timesheets in member files, and have
         policies to ensure that timesheets are properly completed.
   3. b. We recommend that the Corporation require OCS to strengthen program monitoring
         of timesheets and service hours.
   3. c. We also recommend that the Corporation provide training to OCS and its subgrantees
         on appropriate member training activities.
   3. d. We also recommend that the Corporation review results of OCS monitoring visits
         until the Corporation is confident that reported member service hours are for eligible
         service consistent with the grant application and the revised procedures are effective.
   3. e. Our testing at Campus Corps found 28 percent of members sampled had service hours
         in WBRS that were not supported by the timesheets. We recommend the Corporation
         ensure testing of the remaining member timesheets for eligible service hours and
         disallow education awards for members with service hour deficiencies.

                                               30
   3. f. We further recommend that the Corporation disallow earned and used education
         awards, and recover education awards for members whose timesheets did not support
         their eligibility for an award.
   3. g. We also recommend that the Corporation recover any accrued interest paid by the
         Corporation for those members and prevent the payment of accrued interest for all of
         the members with questioned education awards.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.


4. Subgrantees did not always complete member enrollment and exit forms and enter
   them into WBRS in accordance with AmeriCorps requirements.

We tested enrollment and exit forms for a total of 75 members at MCC, Literacy Support, and
Campus Corps. These subgrantees did not enter member enrollment and exit forms into WBRS
within the required 30-day timeframe, as follows:

                        Subgrantee            Enrollment          Exit
                        MCC                         0               1
                        Literacy Support            2               4
                        Campus Corps              14               16
                        Totals                    16               21

In addition, we noted that an exit form for one Literacy Support PY 2005-2006 member was
approved in WBRS before the member completed service.

We further identified enrollment and exit forms that were missing, were not signed by members,
were signed after the members started service, were signed before the members completed
service, were signed in pencil, and had changes that were not initialed.

                                                               Signed                   Changes
                               Not Signed    Signed After      Before        Signed       Not
Subgrantee          Missing    by Member     Service Start   Service End    in Pencil   Initialed
MCC                   0             2              0              0             1           0
Literacy Support      0             3              7              0             3           1
Campus Corps          1             2             14              7             8           0
Totals                1             7             21              7            12           1

AmeriCorps Special Provisions (2005-2006), IV E.2, Notice to the Corporation’s National
Service Trust, requires that grantees notify the Corporation within 30 days of a member’s
enrollment and/or completion of service. AmeriCorps General Provisions (2005-2006) V E.,
Retention of Records, requires grantees to retain all program records for three years from the date

                                                31
of submission of the final Financial Status Report (FSR). Without timely completion and
submission of enrollment and exit forms, the Corporation cannot maintain accurate member
records.

AmeriCorps requirements do not specifically address procedures for preparing forms. It is,
however, good business practice to prepare and sign documents in ink. When member forms are
prepared with pencil, it is difficult to determine if unauthorized alterations have been made, and
an audit trail does not exist to determine if changes were authorized.

Recommendations:
   4. a. We recommend that the Corporation require OCS to strengthen its subgrantee training
         to ensure that member forms are properly completed.
   4. b. We recommend that the Corporation require OCS to strengthen its subgrantee
         program monitoring to ensure that member forms are properly completed.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.

5. Some member contracts were not signed before applicants started service, were
   missing, or did not include all required elements.

AmeriCorps applicants become members only after signing a contract; therefore, service hours
recorded before signing are not eligible to count toward earning an education award.

As discussed in Schedules E and F, we identified the following instances where service hours
recorded subsequent to the contract signing date were insufficient to warrant an education award.

                                Signed After      Signature Date       Questioned
           Subgrantee           Service Start        Changed        Education Awards
           Campus Corps              17                  0              $30,601
           Literacy Support          11                  1                3,588
           Total                     28                  1              $34,189

In addition, we noted that:

               Campus Corps was unable to provide a contract for one member.

               MCC’s member contracts did not include position descriptions (they were
                separate documents). MCC did not provide a position description for one
                member tested from PY 2006-2007.

               The member contract was not signed or dated by the Program Director for one of
                Literacy Support’s members in PY 2006-2007.

                                                32
AmeriCorps Special Provisions (2005-2006), IV C.1.b., Member Enrollment Procedures,
stipulates that AmeriCorps programs are required to sign a member contract with an individual
or otherwise enter a legally enforceable commitment as defined by state law before enrolling a
member. Further, members are not considered enrolled in a program until a contract is signed,
and therefore service hours recorded before signing a member contract are not counted toward
member education awards.

AmeriCorps Special Provisions (2005-2006), IV D.2., Member Contracts, requires members to
sign contracts that stipulate responsibilities and rights, including position descriptions. Failure to
sign member contracts that include all necessary stipulations could result in members being
unaware of their rights and responsibilities.

Recommendations:
   5. a. We recommend that the Corporation require OCS to strengthen its subgrantee training
         to ensure that a signed and dated contract stipulating all member responsibilities and
         rights is obtained before a member begins service and the contract is retained for each
         member for each year of service.
   5. b. We recommend that the Corporation require OCS to strengthen its subgrantee
         program-monitoring of member contracts for compliance with AmeriCorps
         Provisions.
   5. c. Our testing at Campus Corps found 60 percent of members sampled earned service
         hours before their contract was signed. We recommend the Corporation ensure
         testing of the remaining member timesheets for eligible service hours and disallow
         education awards for members with service hour deficiencies.
   5. d. We also recommend that the Corporation disallow, and if already used, recover
         education awards made to members that did not serve the minimum required service
         hours.
   5. e. We further recommend that the Corporation recover any accrued interest paid by the
         Corporation and if not paid, prevent the payment of accrued interest for members
         with questioned education awards.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.

6. Subgrantees did not always document member attendance at orientation training.

MCC, Literacy Support, and Campus Corps could not provide documentation to demonstrate that
members received an orientation covering the AmeriCorps program and requirements before
starting service, as follows:

              MCC did not provide documentation to show that three sampled members from
               PY 2006-2007 received orientation training. MCC officials explained that the

                                                 33
               members received an orientation but believed that the members were unaware that
               they needed to record orientation hours on their timesheets.

              Literacy Support did not provide documentation to show that four members from
               PY 2005-2006 and five members from PY 2006-2007 received orientation
               training. Four of the members started the program late, and their sign-in sheets
               did not indicate that they received orientation.

              Campus Corps did not provide documentation to show that six members from PY
               2005-2006 and six members from PY 2006-2007 received orientation training
               before starting service.

AmeriCorps Special Provisions (2005-2006), IV D. Training, Supervision, and Support, states
that grantees must conduct an orientation for members and comply with any pre-service
orientation or training required by the Corporation. In addition, grantees are required to provide
members with training, skills, knowledge, and supervision necessary to perform tasks required in
their assigned project positions, including specific training in a particular field and background
information on the community served. Further, AmeriCorps General Provisions (2005-2006), V
E., Retention of Records, requires grantees to retain all program records for three years from the
date of submission of the final FSR.

Recommendations:
   6. a. We recommend that the Corporation require OCS to strengthen its subgrantee training
         procedures to ensure that subgrantees maintain and retain documentation to support
         member attendance at orientation.
   6. b. We also recommend that the Corporation require OCS to strengthen its subgrantee
         program monitoring procedures to include verification of documentation to support
         member attendance at orientation.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.

7. Subgrantees did not always conduct member evaluations that met AmeriCorps
   requirements or document all evaluations.

MCC, Literacy Support, and Campus Corps did not provide documentation that some members
received mid-term and final evaluations, and some of the evaluations were missing either
member or supervisor signatures. Missing and unsigned evaluations were as follows:




                                               34
                                      Mid-Term
                                     Evaluations              Final Evaluations
             Subgrantee           Missing  Unsigned          Missing    Unsigned
             MCC                     1          0                7           6
             Literacy Support        3          0                6           1
             Campus Corps            3          1                3           6
             Total                   7          1              16          13

None of the final evaluations tested at MCC, Literacy Support, and Campus Corps indicated
whether the member had completed the required number of service hours to be eligible for an
education award.

AmeriCorps Special Provisions (2005-2006), IV D.6, Performance Reviews, states that grantees
must conduct and keep a record of at least a mid- and end-of-term written evaluation of each
member’s performance for full- and half-time members and an end-of-term written evaluation
for less than half-time members, to document that the member has:

             Completed the required number of hours;
             Satisfactorily completed assignments; and
             Met other performance criteria communicated at the beginning of the service
              term.

In addition, we noted that:
              The mid-term evaluation for one MCC member was signed at the end of the
               member’s service. The member signed the mid-term evaluation on August 14,
               2007, and the final evaluation on August 17, 2007.

             The mid-term evaluations for one PY 2005-2006 and one PY 2006-2007 Campus
              Corps member and the final evaluation for one PY 2005-2006 Campus Corps
              member were signed in pencil.

             One PY 2006-2007 Campus Corps member signed but did not date their mid-term
              evaluation.

             Two PY 2005-2006 and five PY 2006-2007 Campus Corps sampled members
              signed their final evaluation before completing their terms of service.

In our testing we found two Literacy Support members without a PY 2005-2006 final evaluation
who returned for second terms of service in PY 2006-2007. Evaluations are necessary to ensure
that members are eligible for additional service terms, and that grant objectives have been met.
Without evaluations, members are not eligible to serve an additional term of service. We
questioned the Federal share of the members’ PY 2006-2007 living allowance of $14,528 and
education awards of $9,450 as explained in Schedule E, Note 1. We also questioned the match
share of the member’s PY 2006-2007 living allowance of $3,602.



                                               35
Recommendation:
   7. a. We recommend that the Corporation require OCS to strengthen its subgrantee training
         procedures to ensure that subgrantees conduct and document member evaluations that
         meet AmeriCorps program requirements.
   7. b. We recommend that the Corporation require OCS to strengthen its program
         monitoring procedures to ensure that subgrantees conduct and document member
         evaluations that comply with AmeriCorps program requirements.
   7. c. We also recommend that the Corporation disallow, and if already used, recover
         education awards awarded to members that did not receive final evaluations.
   7. d. We further recommend that the Corporation recover any accrued interest paid by the
         National Service Trust for those members with questioned education awards and
         prevent the payment of accrued interest for all of the members with questioned
         education awards.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.

8. Subgrantee financial management systems did not adequately account for and report
   grant costs in accordance with Federal requirements.

Literacy Support, and Campus Corps were not accounting for and reporting grant costs in
accordance with Federal requirements, as follows:

             Literacy Support timesheets did not comply with OMB Circular A-122. Staff
              timesheets were not after-the-fact documentation and were signed several days to
              several weeks prior to the end of the pay period. In addition, the program director
              did not complete a timesheet that accounted for all of the activities for which she
              is compensated. The program director only completed a leave slip that identified
              how many hours were worked or how many hours of personal and holiday leave
              were taken. Finally, the labor allocation for one employee was based on full-time
              equivalents instead of actual hours worked. OMB Circular A-122, Cost
              Principles for Non-Profit Organizations, Attachment B, Paragraph 8.m., Support
              of salaries and wages, states that the distribution of salaries and wages to awards
              must be supported by personnel activity reports that reflect an after-the-fact
              determination of actual activity of each employee. In addition, budget estimates
              or estimates determined before services are performed do not qualify as support
              for charges to awards. We did not question labor costs because we performed
              alternative procedures by interviewing the staff and determined the costs are
              allocable to the grant.

             Literacy Support and Campus Corps did not submit FSRs and progress reports in
              accordance with subgrant requirements. AmeriCorps Special Provisions (2005-
              2006) IV N.1. a., Financial Status Reports and b., Progress Reports, states that

                                              36
              grantees are responsible for setting subgrantee reporting requirements, and that
              subgrantees must adhere to reporting requirements outlined and communicated by
              the grantee for the program year. OCS required semiannual FSRs and progress
              reports to be submitted in WBRS. We identified reports submitted after the
              subgrantee due dates as follows:

                                            FSRs                Progress Reports
                Subgrantee           Number   Days Late        Number Days Late
                Literacy Support       1           3             3        3, 6, 10
                Campus Corps           4         3 to 8          2       3 and 11

The failure to submit subgrantee FSRs and progress reports on time can adversely affect OCS’s
ability to submit complete and accurate reports to the Corporation.

Recommendations:
   8. a. We recommend that the Corporation require OCS to provide subgrantee training to
          ensure that timesheets comply with OMB circulars.
   8. b. We recommend that the Corporation require OCS to provide training to ensure that
          subgrantees report grant progress in a timely manner.
   8. c. In addition, we recommend that the Corporation follow up with OCS to determine
          whether the training was effective.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.

9. OCS and its subgrantees did not ensure the allowability of claimed match costs.

Sampled OCS, MCC, and Literacy Support match costs also included the following unallowable
and unallocable match costs:

             As discussed in Schedule A notes 2.a. and 2.b., OCS claimed $28,645 of
              unallowable match costs on State Administrative Award No. 04CAHMT001. In
              addition, OCS claimed as match State Administrative Grant Award No.
              07CAHMT001 $15,000 of Governor’s Community Service Scholarships. The
              Governor’s Community Service Scholarship program was created when the
              Corporation discontinued the Presidential Freedom Scholarship program. The
              Corporation’s Presidential Freedom Scholarship program promoted student
              service and civic engagement. The Governor’s scholarship program was not an
              AmeriCorps Program and the funds were not used in support of the administrative
              grant.

             In PY 2005-2006, MCC claimed $1,708 of internal evaluation costs. The internal
              evaluation costs were based on estimates of the amount of labor spent by MCC

                                              37
    employees evaluating the program. OMB Circular A-122, Cost Principles for
    Non-Profit Organizations, Attachment B, Paragraph 8.m. Support for salaries and
    wages (2)(a), states that budget estimates do not qualify as support for charges to
    awards.

   In, PY 2006-2007, MCC claimed $101 of member mileage costs from PY 2005-
    2006. OMB Circular A-110, Uniform Administrative Requirements for Grants
    and Agreements With Institutions of Higher Education, Hospitals, and Other Non-
    Profit Organizations, Subpart C. 28., Period of availability of funds, states that,
    where a funding period is specified, a recipient may charge to the grant only
    allowable costs resulting from obligations incurred during the funding period.

   In PY 2005-2006, MCC claimed as match approximately $23,100 of Service
    Awards provided to MCC’s Youth Engaged in Service (YES) members. The
    YES program was a summer volunteer service program for teens operated by
    MCC. AmeriCorps members headed teams of teen volunteers. In addition to the
    YES Service Awards, MCC also claimed as match the costs associated with the
    teams. Per the Corporation’s June 2005 negotiation letter for PY 2005-2006
    programs, Youth Service Awards are not an allowable cost under the AmeriCorps
    grant. The Youth Service Awards were included in MCC’s approved budget
    under Youth Recognition.

   In PY 2005-2006, MCC claimed $4,902 of crew leader graduation costs. In PY
    2005-2006, Literacy Support also claimed $178 of graduation supplies. Per the
    Corporation’s June 2006 negotiation letter, graduation costs are unallowable.
    MCC included crew leader graduation costs under member training. Graduation
    costs were not included in Literacy Support’s approved budgets.

   In PY 2005-2006, Literacy Support claimed as match a $4,000 payment to the
    Montana Campus Compact. The payment was for Literacy Support’s cost share
    for the Montana Campus Compact VISTA member assigned to Literacy Support.
    The VISTA program is another Federal grant and may not be used as match.
    OMB Circular A-110, Uniform Administrative Requirements for Grants and
    Agreements With Institutions of Higher Education, Hospitals, and Other Non-
    Profit Organizations, Subpart C. 23., Cost Sharing or matching states that all
    contributions shall be accepted as part of the recipients cost sharing or matching
    when the costs are not paid by the Federal Government under another award.

   Sampled Literacy Support match expenses included $108 of expenses for staff
    gifts and Fun Day supplies in PY 2005-2006. Literacy Support also claimed $70
    of expenses for volunteer appreciation and staff celebration costs in PY 2006-
    2007. OMB Circular A-110, Uniform Administrative Requirements for Grants
    and Agreements With Institutions of Higher Education, Hospitals, and Other Non-
    Profit Organizations, Subpart C. 23., Cost Sharing or matching states that all
    contributions shall be accepted as part of the recipients cost sharing or matching



                                    38
               when such contributions are necessary and reasonable for proper and efficient
               accomplishment of the project or program objective.

              In PY 2005-2006 and PY 2006-2007 Literacy Support claimed as match $77,460
               and $56,790 of third party contributions from schools and organizations that
               hosted members. The Third Party Contribution reports used by Literacy Support
               summarized the amount of supervisor time, computer, phone, printing,
               photocopying, postage, supplies, and facility space that were provided by the host
               site. Literacy Support did not have procedures to verify that the expenditures
               listed on the reports were correct and did not obtain documentation such as
               general ledger accounting reports to support the amounts claimed on the
               contribution reports. OMB Circular A-110, Uniform Administrative
               Requirements for Grants and Agreements With Institutions of Higher Education,
               Hospitals, and Other Non-Profit Organizations, Subpart C. 23., Cost Sharing or
               matching states that the basis for determining the valuation for personal service,
               material, equipment, buildings and land shall be documented.

Exceptions identified above resulted in overstated match costs claimed on OCS’ FSRs.
However, OCS had substantial overages in match requirements on the Competitive and Formula
grants, and these offset the exceptions identified above. It appears that the match overages will
enable OCS to meet its match requirement. As a result, we did not question overstated
Competitive and Formula match costs here.

OCS claimed excess match on its State Administrative Grant Award No. 07CAHMT001, thus
we did not question overstated Administrative match costs here.

Recommendation:
    9. a. We recommend that the Corporation instruct OCS to review the applicable regulations
            and develop polices and procedures to ensure claimed match costs are allowable,
            adequately documented, and allocable in accordance with applicable cost principles
            and regulations.
    9. b. Finally, we recommend the Corporation review claimed match costs for allowability
            prior to closing OCS grants.
.
OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.

10. OCS did not ensure that subgrantees complied with AmeriCorps requirements for
    documenting compelling personal circumstances and living allowance payments.

OCS did not ensure that subgrantees always complied with the following AmeriCorps
provisions:



                                               39
             Literacy Support exited a member from the program due to compelling personal
              circumstances and awarded a partial education award to the member. Literacy
              Support documented the compelling personal circumstances during a telephone
              conversation with the member, but not obtain documentation demonstrating the
              compelling personal circumstances from the member as required by 45 CFR
              §2522.230.

             Literacy Support provided members that started the program on time with an
              annual living allowance payable over 20 equal installments. Literacy Support
              increased the incremental amount of living allowance paid to members who
              started service late and would not receive 20 installments. Literacy Support
              officials said they were unaware that a living allowance should only be paid while
              a member is serving and were also unaware that increasing incremental amount of
              living allowance was not permitted.

              AmeriCorps Special Provisions (2005-2006), IV I.1., Living Allowance
              Distribution, states that programs should pay the living allowance in regular
              increments, such as weekly or bi-weekly, paying an increased increment only for
              increased living expenses, such as food, housing, or transportation. In addition,
              payments should not fluctuate based on the number of hours served in a particular
              period, and must cease when a member concludes a term of service. Further, if a
              member enrolls after the program’s start date, the program may not increase the
              member’s incremental payment.

             Campus Corps provided certain members with living allowance payments after
              the members completed their service. Campus Corps officials said they were
              unaware that members were only allowed to receive a living allowance while
              serving. In addition, Campus Corps claimed 100 percent of the living allowance
              paid to certain members, even though no more than 85 percent of a member’s
              living allowance can be paid with Federal funds. The member’s profile in the
              payroll system was incorrectly set up to claim all of the member’s living
              allowance as Federal costs.

Recommendation:
   10. a. We recommend that the Corporation require OCS to strengthen its subgrantee training
          to ensure that subgrantees comply with member exit and living allowance
          AmeriCorps requirements.
   10. b. We further recommend that the Corporation require OCS to strengthen its subgrantee
          program monitoring to ensure that subgrantees comply with member exit and living
          allowance AmeriCorps requirements.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.

                                              40
11. OCS did not document all procedures performed during site visits and did not have
    procedures to obtain subgrantee audit management letters or perform necessary
    reconciliations.

Subgrantee Site Visits

The Montana Program Review Instrument (MPRI) used by the OCS did not include or document
all of the monitoring activities that the Commission stated it performed during site visits.
Additionally, some of the procedures included in the monitoring tool were not adequate.
Specifically:

             Module B of the Montana Program Review Instrument (MPRI) did not include a
              step for reviewing member evaluations to determine compliance with AmeriCorps
              provisions and 45 CFR requirements.

             Module C (financial compliance) of MPRI includes a step for determining
              whether member time and attendance records had been signed by the individual
              and supervisor or oversight officials; however, the MPRI did not have a step for
              ensuring that hours accumulated for service were accurately reported on the
              timesheet and in WBRS.

             The MPRI did not have procedures for reviewing orientation agendas and sign-in
              sheets to ensure that members receive orientation and training.

We also noted the following:

             OCS did not perform site visits during PY 2005-2006. Site visits were not
              conducted due to a change in Executive Directors at OCS and because the
              Program Director was on family and medical leave and worked from home.

             During PY 2006-2007, OCS only assessed financial compliance at the Jobs for
              Montana Graduates Foundation (JMGF) subgrantee. In addition, OCS did not
              document the samples selected to support OCS’s assessment of fiscal compliance
              at JMGF. OCS’s program officer believed that financial assessment was not
              needed at the other subgrantees because the staff at the other subgrantees had
              been actively engaged in the programs for several years. OCS did not obtain
              copies of individual samples because the site visit was not an audit and site visit
              results were documented in a written report provided to the subgrantees.

The 45 CFR §2541.400 (a), Monitoring by grantees, states that Grantees are responsible for
managing the day-to-day operations of grant- and subgrant- supported activities Grantees must
monitor grant and subgrant supported activities to ensure compliance with applicable Federal
requirements and that performance goals are being achieved. Grantee monitoring must cover
each program, function, or activity.



                                               41
Subgrantee A-133 Reports and Management Letters

OCS did not have procedures in place to obtain management letters from the subgrantees or to
perform reconciliations of subgrantee payments to report expenditures. We reviewed the
monitoring files for all OCS subgrantees. OCS did not obtain management letters from the
subgrantees until requested for this review. In addition, OCS did not perform reconciliations of
subgrantee payments to the Schedule of Expenditures on Federal Awards.

OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations,
Subpart D.400 (d), Pass-through Entity Responsibilities, requires grantees to ensure that
subrecipients undergo audits meeting requirements of the circular. According to 45 CFR §
2541.260(b)(4), recipients must consider whether subrecipient audits necessitate adjustment of
the grantee’s own records. OCS officials said they were unaware that they needed to obtain
subgrantee management letters and relied on their review of subgrantee FSRs to verify
expenditures.

Recommendations:
   11. a. We recommend that the Corporation require OCS to revise the procedures in its
          monitoring tool for the issues summarized in this report.
   11. b. We recommend that the Corporation require OCS to strengthen its subgrantee
          program monitoring procedures to ensure that all OMB Circular A-133 management
          letters are obtained, necessary reconciliations are performed, and results of these
          procedures are documented.

OCS’s Response: OCS did not have specific comments on these recommendations. OCS
intends to work with the Corporation during the resolution process to make necessary changes to
resolve the findings and to implement the recommendations.

Accountants’ Comments: We continue to make the recommendations as described above.




                                               42
               APPENDIX A

  MONTANA OFFICE OF COMMUNITY SERVICE’S
RESPONSE TO AGREED-UPON PROCEDURES REPORT
                           M ONTANA C OMMISSION ON C OMMUNITY S ERVICE
                                    O FFICE OF THE G OVERNOR
                                             S TATE   OF   M ONTANA


        BRIAN SCHWEITZER                                                                                1301 L O C K EY A V EN U E
        GOVERNOR                                                                                            P.O. B O X 200801
                                                                                        H E L EN A , M O N TA N A 59620-0801


February 11, 2008


Ms. Carol Bates
Assistant Inspector General for Audits
Corporation for National & Community Service
Washington DC 29525

Dear Ms. Bates:

Thank you for the opportunity to comment on the draft report of the Office of Inspector General’s Agreed-Upon-Procedures
for the Corporation for National and Community Service Grants Awarded to the Montana Office of Community Service prepared
by the contracted firm of Cotton & Company LLP, of Alexandria, Va.

The Montana Commission on Community Service is proud to be the administrator of the AmeriCorps Formula and
Competitive grants, and other grant funding provided by the Corporation for National & Community Service. The
Montana Commission feels a strong sense of pride in the difference AmeriCorps has made in Montana. We look upon the
results of the agreed- upon procedures of the Commission as another learning opportunity and take seriously our
responsibility to be a more effective Commission in working with our sub-grantees.

Please see the attached response which provides more detail on some of the questioned costs and findings in the report.
All findings are not addressed as we will be working closely with the Corporation on National & Community Service
during the audit resolution process to make necessary changes to resolve the findings and implement the
recommendations in the report.

Not only the Montana Commission but our AmeriCorps sub grantees have already made substantial changes in the way
we do business based on the audit recommendations. We appreciate the opportunity the audit gives us to strengthen our
organizational procedures, keep our programs in compliance and be good stewards of tax payer dollars. The audit firm
of Cotton & Company has been pleasant and very professional, as has Rick Samson of the OIG. As a new Executive
Director for AmeriCorps programs in Montana, I very much appreciate the help that has been given from the staff at the
Corporation for National and Community Service. We feel that the audit issues presented in the draft report can be
successfully resolved and the Montana Commission appreciates the opportunity to move forward in the process. Please
don’t hesitate to contact us if you need further information.

Sincerely,

Linda Carlson
Linda Carlson
Executive Director
                                                                                                                   1
                             Montana Office of Community Service

                              Response to Findings of the OIG Agreed Upon Procedures

State Administrative Award No 04CAHMT001 Schedule A

Finding No 1 – Claimed Excess Lodging Expense of $1,497 not approved

The Commission believes the expenditure was approved. Under the state of Montana Travel Policy, the
Montana Commission Executive Director is the “designated approving authority” and did approve the
expenditure. The Commission has made changes to procedures to be sure correct forms are used for
documentation for travel claims.

Finding No 2 – Questioned Costs for unmet match requirements

   a. Questioned match of $1,450. The commission will be working with CNCS during the audit resolution
process, and may have other matching funds.

   b. Questioned match of $27,195. The commission will be working with the CNCS during the audit resolution
process, and may have other matching funds.

State Administrative Award No 07CAHMT001 Schedule B

Finding No 1 – Questioned cost of $300 for a gift certificate

The commission agrees that this expense was incorrectly paid by this grant. The Commission has corrected the
policies and procedures to accurately record expenses in the correct grants and is working with the fiscal agent
to be sure this error will not occur again.

PDAT Award No 05PTHMT001 Schedule C

Finding No 1 – Claimed Excess Lodging expense of $525 not approved

The Commission believes the expenditure was approved. Under the state of Montana travel policy the
Commission Executive Director is the “designated approving authority” and did approve the expenditure. The
Commission has made changes to procedures to be sure the correct forms are used for documentation.

Montana Conservation Corp 03ACHMT001 Schedule D

Finding No 1 –Questioned Federal Cost of $1,042

The Commission concurs with the auditors. The sub grantee has changed internal policies and procedures to
reflect the correct category for this type of expenditure. The Commission will be developing more detailed
guidance to correct compliance issues.
                                                                                                                 2

Montana Literacy Support Corps 03ACHMT001, 06ACHMTOO1 Schedule E

Finding No 1 – Questioned Benefits of $14,528 and Educational Award of $9,450

The Montana Commission will be working with the CNCS during the audit resolution process.

Finding No 2 – Living Allowance of $5,608 and $3,259 Paid to Members

The Commission agrees with the auditors that the living allowance was paid incorrectly. The sub grantee was
made aware during the audit process of the changed provisions and has implemented policies and procedures to
correct the error. AmeriCorps Provisions will be reviewed with sub grantees on a timelier basis so that this error
will not occur again.

Finding No 3 – Slot Status Change Approval for Living Allowance Paid of $5,608 and $3,259

The Commission believes that approval was given and will be working with the CNCS on the audit resolution
process to provide that documentation.

Finding No 4 – Excess Administrative Costs of $1,925

The commission concurs, the entries were recorded incorrectly. Correct recording of all entries to be in
compliance with Federal requirements will be provided in additional training for sub grantees by the
Commission.

Finding No 5 – Written Contract for Training questioned cost of $525

The Commission concurs with the auditors that written contracts are necessary as documentation. Internal
controls have been updated to be sure the issue has been clarified to have sub grantees in compliance.

Finding No 6 – Questioned Costs for Lunch $237

The Commission agrees that the cost for this expense should have had more itemized documentation to clarify
the expenditure. Changes to policies and procedures have been developed to be sure correct documentation is
obtained for this type of expenditure.

Finding No 7 – Questioned Costs for Lunch $195/ allowable expense

The Commission agrees that the cost for this expense should have had more itemized documentation to clarify
the expenditure. Changes to policies and procedures have been developed to be sure the correct documentation
is obtained for this type of expenditure. Policies and Procedures have also been developed to correctly designate
allowable expenses.

Finding No 8 – Questioned Cost of $135 Gas Stipend

The commission agrees that written documentation should have been provided for the methodology used in
determining gas stipend expenses for members. Policies and Procedures have been changed to provide the
documentation for actual recorded mileage at the Federal rate.
                                                                                                              3
Finding No 9 – Questioned Costs of $46

The Commission agrees with the auditors that funds were unallowable and should have been designated to a
different source. Policies and Procedures have been corrected to reflect better monitoring of expenses.

Finding No 10 – Holiday Bonus Hours, and Personal Leave Questioned Costs

a. Questioned awards of $14,241 The Commission will be working with the CNCS during the audit resolution
process.

b. Questioned awards of $33,077 The Commission will be working with CNCS during the audit resolution
process.

c. Questioned awards of 2,363 The Commission will be working with CNCS during the audit resolution process.
Finding No 11 – Questioned Educational Awards of $10,450 and $16,675

We believe the WBRS and time sheet data presented by the auditors may have incorrect calculations. We will
work with CNCS during the audit resolution process.
Finding No 12 – Certification of Eligibility Questioned awards of $1,000 and $9,450

The Commission will be working with the CNCS in the audit resolution process.

Finding No 13 – Questioned Educational Awards of $9,450

The Commission will be working with the CNCS during the audit resolution process.

Finding No 14 Questioned Educational Awards because of member contracts

The Commission will be working with the CNCS during the audit resolution process.

Finding No 15 – Estimated Service Hours for Educational Award of $1,250

The Commission will be working with CNCS in the audit resolution process.

Finding No 16 – Documentation for Compelling Personal Circumstance $743

The Commission feels that the documentation provided in WBRS, members timecard, and personal contact was
correct documentation as 45CFR §2522.230 does not specify a specific type of documentation required.

Finding No 17 – Questioned Forbearance Payments $6,601 and $4,374

The Commission response will be based on the audit resolution process.
                                                                                                                       4
Montana Campus Corp 03AFHMT001 06ACHMT001 Schedule F

Finding No 1 – Questioned Living Allowance for $1,457

The Commission concurs with the auditors and is strengthening internal controls to reflect correct procedures.
The Commission will be developing a stronger training and monitoring system.

Finding No 2 – Printing Costs Questioned of $380 and $1,880 Conference

The Commission agrees with the auditors. Policies and Procedures have been corrected to ensure that all costs
are allocated to the project directly in relation to benefits received by the program and its enrolled participants.

Finding No 3 – Living Allowance Paid Questioned of $883

The Commission agrees with the auditors; however we believe the member in question completed her service in
July 2006. The member did receive one month’s living allowance in error, so the questioned cost amount is
correct, but the time period the member worked is incorrectly stated.

Finding No 4 –Training Costs Questioned $310

The Commission agrees with the auditors that the cost was incorrectly allocated to the grant, and has changed
procedures to correct this error.

Finding No 5 –Questioned Costs of $141

a. The commission agrees with this questioned cost of $40 and $30, for gifts to members, Policies and
Procedures have been changed to correct this error.

b. The Commission agrees with this questioned cost of $45 for and Policies and Procedures have been corrected
to correct this error.

c. The commission agrees with this questioned cost of $26 for entertainment, and Policies and Procedures have
been changed to correct this error.

Finding No 6 – Timesheet Questioned Ed Awards of $3,613 and $1,250

The Commission agrees with the auditors. Procedures were implemented in the 2007-2008 PY prior to the audit
to correct timesheet errors.

Finding No 7 – Questioned Member Hours

The Commission will be working with the CNCS during the audit resolution process.

Finding No 8 –Interest Forbearance of $2,346 and $1,587

The Commission will be working with CNCS during the audit resolution process.
                      APPENDIX B

CORPORATION’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
